    DEPARTMENT OF HEALTH & HUMAN SERVICES                                         Office of Inspector General


                                                                                  Region IX
                                                                                  Office of Audit Services
                                                                                         h
                                                                                  90 - i Street, Suite 3-650
  J L 0 1 2009                                                                    San Francisco, CA 94103




Report Number: A-09-09-00059

Mr. Don Soltman
Compliance Officer
Kootenai Medical Center
2003 Lincoln Way
Coeur d' Alene, Idaho 83814-2611

Dear Mr. Soltman:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of Oxaliplatin Billing at Kootenai Medical Center
for Calendar Year 2005." We will forward a copy of this report to the HHS action official noted
on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please call Tom Lin, Senior Auditor, at
(415) 437-8374 or Alice Norwood, Audit Manager, at (415) 437-8360. Please refer to
report number A-09-09-00059 in all correspondence.

                                               Sincerely,



                                              Lori A. Ahlstrand
                                              Regional Inspector General
                                               for Audit Services


Enclosure
Page 2   Mr. Don Soltman


Direct Reply to RRS Action Official:

Ms. Nanette Foster Reilly, Consortium Administrator
Consortium for Financial Management & Fee for Service Operations (CFMFFSO)
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF

        INSPECTOR GENERAL





          REVIEW OF

    OXALIPLATIN BILLING AT

  KOOTENAI MEDICAL CENTER

   FOR CALENDAR YEAR 2005





                    Daniel R. Levinson

                     Inspector General


                        July 2009

                      A-09-09-00059

                    Office ofInspector General
                                      http:// oig.hhs.gov



The mission ofthe Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office ofInvestigations
The Office ofInvestigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY


BACKGROUND

Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. Medicare uses an outpatient prospective payment system to pay for hospital outpatient
services.

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1, 2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

Kootenai Medical Center is a community-owned hospital located in Coeur d' Alene, Idaho. We
reviewed payments to Kootenai Medical Center for oxaliplatin provided to Medicare
beneficiaries during calendar year (CY) 2005.

OBJECTIVE

Our objective was to determine whether Kootenai Medical Center billed Medicare for oxaliplatin
in accordance with Medicare requirements.

SUMMARY OF FINDING

During CY 2005, Kootenai Medical Center did not bill Medicare in accordance with Medicare
requirements for the five oxaliplatin outpatient claims that we reviewed. Kootenai Medical
Center billed Medicare for an incorrect number of service units for those claims and received
overpayments totaling $146,206. The overpayments occurred because the hospital did not
follow established procedures to ensure the proper billing of oxaliplatin.

RECOMMENDATIONS

We recommend that Kootenai Medical Center:

   •   refund the $146,206 in identified overpayments to the fiscal intermediary and

   •   ensure that service units of drugs billed correspond to units of drugs administered.

KOOTENAI MEDICAL CENTER COMMENTS

In its comments on our draft report, Kootenai Medical Center concurred with our finding.
Kootenai Medical Center's comments are included in their entirety as the Appendix.
                            TABLE OF CONTENTS




INTRODUCTION                                          1


     BACKGROUND                                       1

         Outpatient Prospective Payment System        1

         Oxaliplatin                                  1

         Kootenai Medical Center                      l


     OBJECTIVE, SCOPE, AND METHODOLOGY                 1

          Objective                                    1

          Scope                                        1

          Methodology                            '" .. 2


FINDING AND RECOMMENDATIONS                          2


     MEDICARE REQUIREMENTS                           2


     INCORRECT NUMBER OF SERVICE UNITS BILLED        3


    RECOMMENDATIONS                                  3


    KOOTENAI MEDICAL CENTER COMMENTS                 3


APPENDIX


    KOOTENAI MEDICAL CENTER COMMENTS





                                       11
                                      INTRODUCTION


BACKGROUND


Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health
insurance for people age 65 and over and those who are disabled or have permanent kidney
disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Outpatient Prospective Payment System

Pursuant to the Balanced Budget Act of 1997, P.L. No. 105-33, CMS implemented an outpatient
prospective payment system (OPPS) for hospital outpatient services. The OPPS applies to
services furnished on or after August 1, 2000.

Under the OPPS, Medicare pays for services on a rate-per-service basis using the ambulatory
payment classification group to which each service is assigned. The OPPS uses the Healthcare
Common Procedure Coding System (HCPCS) to identify and group services into an ambulatory
payment classification group.

Oxaliplatin

Oxaliplatin is a chemotherapy drug used to treat colorectal cancer. From July 1, 2003, through
December 31, 2005, Medicare required hospital outpatient departments to bill one service unit
for each 5 milligrams of oxaliplatin administered.

Kootenai Medical Center

Kootenai Medical Center is a community-owned hospital located in Coeur d' Alene, Idaho.
Kootenai Medical Center's Medicare claims are processed and paid by Noridian Administrative
Services, the fiscal intermediary.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Kootenai Medical Center billed Medicare for oxaliplatin
in accordance with Medicare requirements.

Scope

We identified six claims for which Kootenai Medical Center billed HCPCS code C9205 for more
than 100 service units of oxaliplatin and received Medicare payments totaling $184,008 for
oxaliplatin furnished to hospital outpatients during calendar year (CY) 2005. Before the start of
our audit, Kootenai Medical Center and the fiscal intermediary corrected one of the six claims.
We reviewed the remaining five claims with Medicare payments totaling $159,298.




                                                1

We limited our review of Kootenai Medical Center's internal controls to those applicable to
billing for oxaliplatin services because our objective did not require an understanding of all
internal controls over the submission of claims. Our review allowed us to establish reasonable
assurance of the authenticity and accuracy of the data obtained from CMS's National Claims
History file for CY 2005, but we did not assess the completeness of the file.

We performed our audit from December 2008 through May 2009.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Medicare laws, regulations, and guidance;

   •	 used CMS's National Claims History file for CY 2005 to identify Medicare claims for
      which Kootenai Medical Center billed at least 100 service units of oxalip1atin under
      HCPCS code C9205 and received Medicare payments for those units;

   •	 contacted Kootenai Medical Center to determine whether the identified oxaliplatin
      services were billed correctly and, if not, why the services were billed incorrectly;

   •	 obtained and reviewed records from Kootenai Medical Center that supported the

      identified claims; and


   •	 calculated overpayments using corrected payment information processed by Noridian
      Administrative Services.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                          FINDING AND RECOMMENDATIONS

During CY 2005, Kootenai Medical Center did not bill Medicare in accordance with Medicare
requirements for the five oxa1iplatin outpatient claims that we reviewed. Kootenai Medical
Center billed Medicare for an incorrect number of service units for those claims and received
overpayments totaling $146,206. The overpayments occurred because the hospital did not
follow established procedures to ensure the proper billing of oxaliplatin.

MEDICARE REQUIREMENTS

Section 9343(g) of the Omnibus Budget Reconciliation Act of 1986, P.L. No. 99-509, requires
hospitals to report claims for outpatient services using HCPCS codes. CMS's "Medicare Claims
Processing Manual," Pub. No.1 00-04, chapter 4, section 20.4, states: "The definition of service


                                                2

units ... is the number of times the service or procedure being reported was performed." In
addition, chapter 1, section 80.3.2.2, of this manual states: "In order to be processed correctly
and promptly, a bill must be completed accurately."

Through CMS Transmittal A-03-051, Change Request 2771, dated June 13,2003, CMS
instructed hospital outpatient departments to bill for oxaliplatin using HCPCS code C9205
effective July 1, 2003. The description for HCPCS code C9205 is "injection, oxa1iplatin, per
5 [milligrams]." Therefore, for each 5 milligrams of oxaliplatin administered to a patient,
outpatient hospitals should have billed Medicare for one service unit during our audit period.

Effective January 1, 2006, CMS instructed hospitals to bill Medicare for oxaliplatin using
HCPCS code J9263. The service unit for that code is 0.5 milligrams.

INCORRECT NUMBER OF SERVICE UNITS BILLED

During CY 2005, Kootenai Medical Center billed Medicare for an incorrect number of service
units for the five oxaliplatin outpatient claims that we reviewed. Rather than billing one service
unit for each 5 milligrams of oxaliplatin administered, as Medicare required, Kootenai Medical
Center billed one service unit for each 0.5 milligrams administered. For the five claims,
Kootenai Medical Center received overpayments totaling $146,206.

The overpayments occurred because the hospital did not follow established procedures to ensure
the proper billing of oxaliplatin.

RECOMMENDATIONS

We recommend that Kootenai Medical Center:

   •   refund the $146,206 in identified overpayments to the fiscal intermediary and

   •   ensure that service units of drugs billed correspond to units of drugs administered.

KOOTENAI MEDICAL CENTER COMMENTS

In its comments on our draft report, Kootenai Medical Center concurred with our finding.
Kootenai Medical Center's comments are included in their entirety as the Appendix.




                                                 3

APPENDIX

                                                                                                 APPENDIX





 "~ootenai Medical Center



                   June 26, 2009



                   Department of Health & Human Services

                   Office of Inspector General

                   Region iX, Office of Audit Services

                   90 - 7th Street, Suite 3--650

                   San Francisco, CA 94103


                   Re: Report Number A-09-09"OOOS9


                   Dear Ms. Ahlstrand:

                   Your draft report "Review of Oxaliplatin Billing at Kootenai Medical Center
                   for Calendar Year 2005" has been reviewed. Kootenai Medical Center
                   concurs with both findings.

                   Finding #1: Concur. The entire amount of $146,206 has been refunded
                   through the electronic claims process.

                   Finding #2: Concur. The service units in the chargemaster have been
                   changed to match the units of administration of oxaliplatin.

                   If there is further action needed on our part, please let me know.




                   Sincerely,



                   Don Soltman

                   Compliance Officer



20B I BBB I 2000
www.kmc.org
2003 Lincoln Way
Coeur d'Alene, Idaho 83814
